APPALACHIAN REGIONAL COMMISSION
  OFFICE OF INSPECTOR GENERAL
      AUDIT OF GRANT AWARD
 New York State Department of State (DOS)
            Albany, New York




         Final Report Number: 13-34
    Project Number: NY-7776-C31 & C32
                August 2013




                Prepared by
        Leon Snead & Company, P.C.
                                                    TABLE OF CONTENTS



Background ......................................................................................................................................1

Objective, Scope, and Methodology ................................................................................................1

Summary of Audit Results ...............................................................................................................2

Findings and Recommendations ......................................................................................................4

           A. Grant Reporting .............................................................................................................4

           B. Utilizing Grant Funding .................................................................................................6

           C. Performance Measurements ...........................................................................................8

Grantee Response - Appendix I…...................................................................................................9




                                                                        i
Background

Leon Snead & Company, P.C. completed an audit of grant numbers NY-7776-C31 and C32
awarded by the Appalachian Regional Commission (ARC) to the New York State Department of
State (DOS). The audit was conducted at the request of the ARC, Office of the Inspector
General, to assist that office in its oversight of ARC grant funds.

DOS is the official agent of the State of New York for coordinating with the ARC in
administering the State’s Appalachian Regional Development Program. The program is
coordinated by DOS in partnership with the region's Local Development Districts (LDDs),
regional development agencies, and local governments. DOS provides guidance and coordinates
with the LDDs in working with local communities and participants to identify regional needs,
develop plans, and solicit ARC funding for local development projects. Within the DOS
organization, the ARC program is managed by a program manager in the Division of Local
Government Services with the support of two employees.

ARC grant number NY-7776-C31 covered the period October 1, 2010 through September 30,
2011. It provided $258,285 in ARC funds and required $262,719 in non-federal match funding
for the grantee to provide technical assistance for project development, planning, monitoring and
program development for New York’s ARC program. Program activities supported by this grant
included: the overall administration of the ARC program in Appalachian New York;
development of the annual Strategy Statement and revisions; preparation of the annual
Investment Package; program development and oversight of all ARC programs, including those
sub-contracted through the three LDDs; and implementing a system of reporting and monitoring
using the performance measures. The grant had been completed and closed by ARC at the time
of the audit.

ARC grant number NY-7776-C32 provided $266,034 in ARC funds and required $270,601 in
non-federal match funding for DOS to continue to carry out its planned technical assistance
support activities during the period October 1, 2011 through September 30, 2012. The grant had
been completed, but had not been closed by ARC at the time of the audit.

Objectives, Scope, and Methodology

The audit objectives were to determine whether: (1) program funds were managed in accordance
with the ARC and federal grant requirements; (2) internal grant guidelines, including program
(internal) controls, were appropriate and operating effectively; (3) accounting and reporting
requirements were implemented in accordance with generally accepted accounting principles (or
other applicable accounting and reporting requirements); and (4) the matching requirements and
the goals and objectives of the grant were met.

We reviewed the documentation provided and interviewed DOS personnel to obtain an overall
understanding of the grant activities, the accounting system, and the operating procedures. We
reviewed DOS’ administrative procedures and related internal controls to determine if they were
adequate to administer the grant funds. We reviewed the most recent Single Audit report to
determine whether there were any issues that impacted the ARC grants.


Leon Snead & Company, P.C.                     1
In addition, we selected for testing a sample of $126,350 in expenditures charged to the two
grants ($104,440 for NY-7776-C31 and $21,910 for NY-7776-C32) to determine whether the
charges were properly supported and allowable. We focused the testing on expenditures charged
to the grants during the period October 1, 2010 through September 30, 2012. However, we were
unable to determine the exact amount of total grant expenditures for the period because DOS
personnel were still making adjustments to the financial report submitted for grant NY-7776-C31
and had not finalized the financial report for grant NY-7776-C32 at the time of our on-site visit.

As a basis for determining whether the costs charged to the grants were allowable and whether
DOS had complied with the applicable Federal requirements, we used the provisions of the grant
agreements, applicable Office of Management and Budget Circulars, and the ARC Code. The
audit was performed in accordance with the Government Auditing Standards. The fieldwork was
performed during the period of June 3-11, 2013, including on-site work at DOS’ office in
Albany, New York. The audit results were discussed with the DOS representatives at the
conclusion of the on-site visit.

Summary of Audit Results

DOS’ financial and administrative procedures and related internal controls were generally
adequate to manage the grants and funds reviewed. However, we determined that the grantee did
not submit the required interim project reports, was routinely late in submitting both the final
project reports and the final financial reports. In addition, DOS did not utilize a significant
amount of its obligated funds during the past several years. We also identified an area relating to
the performance measurement process that needs to be addressed by the grantee. These issues are
discussed in more detail in the Findings and Recommendations section of the report.

Based on the final project reports, it appears that DOS had achieved the overall grant goals and
objectives. Following are some of the accomplishments DOS highlighted in its final project
reports for the two grants.

Under grant NY-7776-C31

  •   Provided technical assistance to ARC applicants and LDDs and held periodic meetings and
      conference calls with the state LDDs.
  •   Reviewed all LDD-submitted FY 2011 ARC applications and coordinated with LDDs and
      basic federal agencies to submit and gain approval of DOS-recommended ARC grant
      applications.
  •   Prepared an annual New York Appalachian Regional Package with recommendations for
      project priorities based upon established state and regional priorities.
  •   Submitted 31 full applications to the ARC - 29 were approved by the ARC’s Federal Co-
      Chair (totaling $3,701,508 in ARC funding).
  •   Closed out 33 projects from the state (totaling $4,458,538) in FFY 2011.
  •   Monitored technical assistance, planning, project development, and program development
      activities of the LDDs supported by augmented administrative grants.




Leon Snead & Company, P.C.                      2
Under grant NY-7776-C32

   •   In coordination with the LDDs, the staffs were proactive in carrying out the tasks relating
       to the ARC’s Area Development Grant Program by responding to written, telephone, and
       e-mail inquiries regarding the State’s Appalachian Region Development Program and by
       providing direct technical assistance to local project sponsors on the development of
       applications.
   •   Reviewed all proposed ARC area development project applications provided by LDDs
       for funding in FFY 2012, scored and ranked all proposed projects and prepared the
       State’s FFY 2012 Package for review and submission to the ARC.
   •   Monitored the rate of completion of projects that had been funded by the ARC. In FFY
       2012, 24 projects (totaling $2,497,176 in ARC grants) were closed out.
   •   Ensured that the LDDs were acquainted with co-funding initiatives, and that the State’s
       ARC Program was involved in several co-funding opportunities planned for the Southern
       Tier. As part of this process, the staff participated in monthly conferences call meetings
       with state and federal infrastructure funders to discuss new and existing projects.
   •    Completed the drafting of the 2011-2014 New York State Development Plan for
       Appalachia and the FFY 2013 Strategy Statement.
   •   Conducted 12 training sessions in the state to enhance community capacity - trained over
       2,000 local government officials.




Leon Snead & Company, P.C.                      3
                                Findings and Recommendations

A. Grant Reporting

DOS did not submit its interim six-month project reports as required by the grant terms. In
addition, DOS was routinely late in submitting both the final project reports and the final
financial reports (SF-270). As a result, DOS was not fully complying with the grant terms and
was preventing ARC from effectively meeting its responsibilities for monitoring its projects and
maintaining effective control over the grant funds.

The terms of the grant agreements required DOS to submit both project and financial reports to
ARC. An interim six-month project report was required to be submitted within 30 days after the
end of the reporting period. A final project report was due within 30 days after the end of the
grant period. ARC procedures involve obtaining both the final project reports and final SF-270
financial reports in order to close out the project and related funds.

Project Reports - Both of the grants reviewed had been completed so both the interim six-month
and final project reports should have been submitted. We requested the reports submitted for
both grants. DOS stated in its response to the draft report that the interim six-month reports were
not completed due to competing priorities and limited staff.

Both of the final project reports that were provided to us were submitted late. The report for
grant NY-7776-C31 was due October 31, 2011, but was not submitted until March 6, 2012, over
four months late. The report for grant NY-7776-C32 was due October 31, 2012, but was not
submitted until February 21, 2013, over three months late. The main reasons given for the final
report delays were (a) not making the report a high priority item and (b) the considerable amount
of time needed for collecting the various data and information required for evaluating results and
preparing the report. In discussing the latter factor, we determined that the DOS ARC office did
not have an established method or system for collecting the data and information during the grant
period. Therefore, the staff had to devote considerable time and effort after the grant ended
gathering the data and preparing the report.

SF-270 Reports - We requested the final SF-270 financial reports submitted to ARC for both
grants. The final reports were due 30 days after the end of the grant period. A final report
should have been submitted for grant NY-7776-C31 by October 31, 2011, but was not submitted
until February 17, 2012, over three months late. The report for grant NY-7776-C32 was due
October 31, 2012, but had not been submitted to ARC at the time of our audit, which was over
eight months late at the time. Although we were not specifically reviewing grants NY-7776-C29
and C30, we also noted that the final reports for these grants were not submitted to ARC until
February 17, 2012 (the same time as for grant NY-7776-C31), which was over two years and one
year late, respectively. The financial office staff preparing the SF-270 reports told us that the
primary reason for the delays was the difficulty in obtaining timely and accurate accounting
system reports needed to prepare the final reports.

DOS’ late submission of its financial reports has affected ARC’s ability to effectively meet its
obligations in managing the grants in recent years. For example, ARC obligated funds for grant


Leon Snead & Company, P.C.                      4
NY-7776-C29 on September 30, 2008, and it was not until March 6, 2012 (more than three years
late) that $69,441 could be de-obligated by ARC and used for other purposes due to DOS
submitting a late SF-270 report. Similarly, $33,533 and $91,679 on grants NY-7776-C30 and
C31, respectively, were left obligated by ARC for long periods because of late reporting.

At the exit conference, the grantee representatives did not express any disagreement with the
finding and recommendations and indicated that improvement is needed in this area.

Recommendations

DOS should:

   1. Establish a system for identifying the type of data and information needed to prepare the
      final project report and begin collecting that information on a routine basis to reduce the
      time needed to do so at grant completion.

   2. Make grant reports a high priority and establish a means of ensuring they are submitted
      on time or formal approval by ARC is obtained to allow them to be submitted late.

Grantee Response

DOS indicated agreement with the finding and provided the following comments in response to
the two recommendations.

1. While DOS ARC program is aware that data needs to be collected, in certain cases, the data
   comes from other Department programs and takes time to collect. We will increase the focus
   on collecting this data and establishing a process for collecting information on a quarterly
   basis. With respect to financial reporting, DOS Fiscal notes that there is some inherent lag in
   obtaining quarterly fringe and indirect cost invoices from the Office of the State Comptroller,
   and in collecting time distribution data to accurately move personal service charges that will
   create fringe and indirect charges/credits for the following quarter. DOS Fiscal will work to
   best address the delays in an accurate, consistent manner that will allow for prompt reporting.

2. As stated above, the submission of reports will remain a priority of the Department, and the
   establishment of better data collection processes will enable reports to be submitted in a
   timely manner. While we appreciate the ability to request extensions to submit reports, our
   goal will be to submit reports on time without needing to obtain extension approval from
   ARC staff.


Reviewer’s Comments

The response provided by the grantee is sufficient to close out the two recommendations.




Leon Snead & Company, P.C.                      5
B. Utilizing Grant Funds

DOS has consistently reported final expenditures on the technical assistance grants that were
substantially less than the amount of Federal funding requested and approved by ARC.

We noted that only 66 percent of the obligated Federal funds were expended on grant NY-7776-
C29, 83 percent on NY-7776-C30, and around 64 percent on NY-7776-C31 for 2010-2011. The
final SF-270 report for grant NY-7776-C32 was still being prepared so we were unable to
determine the percentage of funds used for that grant. Minimizing the amount of unused funds
on a grant not only requires developing accurate and supported estimates, but also effective
monitoring of expenditures during the grant period and either taking actions to ensure the funds
are still needed or taking timely action to de-obligate the unneeded funds. Additionally, having
to consistently de-obligate unused funds at the end of a grant period result in the lost opportunity
for ARC to utilize those funds during the grant period for other projects.

We discussed the unused fund issue with the DOS ARC staff. The primary reason given for not
using all of the obligated funds was not having sufficient match amounts to claim the entire ARC
amount. This was attributed to budget limitations and cost-cutting measures within the state and
the Local Government Services Division (LGSD), rather than having less ARC-related projects
than planned. One example cited was reduced travel budgets for LGSD programs that limited
the number and type of visits initially planned. As a result, some activities were not being done
that may have supported the ARC projects and would have been allowable match costs.

We recognize the difficulty in developing accurate budget estimates and predicting factors such
as cutbacks and austerity measures. However, there should be adequate attention given to this
area to ensure the planned or budgeted amount of match funding is reasonably accurate and
likely going to be attainable and that the expenditure rate during the grant period is consistent
with the approved amount. When it is not, prompt action should be taken, including de-
obligating funds.

At the exit conference, the grantee representatives did not express any disagreement with the
finding and recommendations.

Recommendations

DOS should:

   1. Establish a system to better estimate the amount of funding needed to carry out the
      planned activities based on reasonable projections and factors such as available match
      funds.

   2. Establish a process to routinely monitor the rate of all funds being expended during the
      grant period.

   3. When it is anticipated that not all of the budgeted Federal funds will be used, submit a
      revised budget to ARC so consideration can be given to de-obligating the funds.


Leon Snead & Company, P.C.                       6
Grantee Response

DOS indicated agreement with the finding and provided the following comments in response to
the three recommendations.

   1. Prior to being notified of this audit, DOS Fiscal began working with the DOS ARC
      program staff to strengthen the lines of communication. At a minimum, DOS stated that
      quarterly meetings will be scheduled to work on budgets and projections, track spending
      rates, and review matching spending levels and opportunities.

   2. Quarterly meetings (at a minimum) of the DOS Fiscal and DOS ARC program staff will
      facilitate more routine monitoring of spending levels.

   3. Increased, scheduled communications between the DOS Fiscal and DOS ARC program
      staff will allow for the development and submission of timely budget revisions as
      necessary.

Reviewer’s Comments

The response provided by the grantee is sufficient to close out the three recommendations.




Leon Snead & Company, P.C.                      7
C. Performance Measurements

The DOS work-plans that we reviewed contained sub-objectives and tasks that were described
only in broad terms. There were no quantified, specific performance measures that could be
compared to the actual grant results reported to evaluate how successful the grant was. The
work-plans would be a better basis for evaluating grant performance if they included more
specific metrics to clearly reflect what activities were planned. For example, the work-plans
could include with the planned objective or sub-objective some specific, quantified measures
such as numbers of projects expected to be approved, number of field visits planned to
coordinate with the LDDs or regional boards, and number of projects planned to be monitored
and completed. This would provide a clear description of what is expected to be achieved, and
when compared to the reported results, would provide an objective basis for evaluation and
conclusion of how successful the grant was and if it was a good use of the Federal funds.

At the exit conference, the grantee representatives did not express any disagreement with the
finding and recommendations.

Recommendations

DOS should:

   1. Include specific, quantified metrics with the planned objectives and activities described in
      the grant application work-plan.
   2. Establish a means to collect the necessary data to report on the quantified metrics agreed
      to and included in the plan.

Grantee Response

DOS indicated agreement with the finding and provided the following comments in response to
the two recommendations.

1. In prior years, the Department’s technical assistance application submitted to ARC has listed
   specific objectives to be accomplished and general activities to support the completion of the
   objectives. The measurement of the success of each objective would be increased if each
   planned activity was supported directly by a specific measure. In the next Consolidated
   Technical Assistance application work-plan, DOS will include measureable activity metrics
   for each activity.

2. Program staff will develop a more specific internal process to gather necessary data on a
   quarterly basis. DOS also stated that it has already instituted a policy that calls for regularly
   scheduled quarterly meetings between the DOS Fiscal and DOS ARC program staff, which
   will involve assessing the progress of activities moving toward meeting NYS’ grant plans.

Reviewer’s Comments

The response provided by the grantee is sufficient to close out the two recommendations.

Leon Snead & Company, P.C.                       8
                                Appendix I
                             Grantee Response




Leon Snead & Company, P.C.          9
                                          STATE OF NEW YORK
                                       D E P AR T M E N T
                                                     O F S T AT E
                                         O NE COMMERCE PLAZA
A NDREW M. C UOMO                       99 W ASHINGTON AVENUE                             CESAR A. PERALES
     G OVERNOR                          ALBANY, NY 12231-0001                              S ECRETARY   OF   S TATE




                                                                         August 9, 2013



Mr. Leon Snead
President
Louis Snead and Company, PC
416 Hungerford Drive, Suite 400
Rockville, Maryland 20850


RE: Draft Report - Audit of the New York State Department of State Consolidated Technical Assistance
Grant – Project Numbers NY-7776-C31 & C32

This is in response to the July 2013 Draft Report of a recent audit of the above-identified grants awarded
by the Appalachian Regional Commission (ARC) to the New York State Department of State. The audit
examined the Department of State (DOS)’s administration and implementation of the ARC-supported
technical assistance program in Appalachian New York State (NYS). The audit is intended to assist
ARC in overseeing DOS administration of ARC grant funds.

In administering the ARC program for Appalachian NYS, DOS ARC program staff collaborates with
DOS Bureau of Fiscal Management (Fiscal) staff to track ARC program grants and to process applicable
financial reports. We appreciate the “Recommendations” made in the Draft Report; they will assist us in
our ongoing continuous efforts to improve our processes. Our comments and responses to the Draft
Report follow:

   A. Grant Reporting –

DOS agrees with the information regarding the processes followed during the two-year reporting period
from October 1, 2010 through September 30, 2012. However, we believe it is misleading to simply state
that program staff said that some reports were not completed “because they simply did not make them a
high priority item.” We would prefer this statement to be revised to more accurately reflect that these
reports were not completed due to competing priorities and limited staff.

Recommendation #1

Establish a system for identifying the type of data and information needed to prepare the final project
report and begin collecting that information on a routine basis to reduce the time needed to do so at
grant completion.




                                  WWW .DOS.NY.GOV   •   E-MAIL: INFO@DOS.NY.GOV
Agree. While DOS ARC program is aware that data needs to be collected, in certain cases, the data
comes from other Department programs and takes time to collect. We will increase the focus on
collecting this data and establishing a process for collecting information on a quarterly basis. With
respect to financial reporting, DOS Fiscal notes that there is some inherent lag in obtaining quarterly
fringe and indirect cost invoices from the Office of the State Comptroller, and in collecting time
distribution data to accurately move personal service charges that will create fringe and indirect
charges/credits for the following quarter. DOS Fiscal will work to best address the delays in an
accurate, consistent manner that will allow for prompt reporting.

Recommendation #2

Make grant reports a high priority and establish a means of ensuring they are submitted on time or
formal approval by ARC is obtained to allow them to be submitted late.

Agree. As stated above, the submission of reports will remain a priority of the Department, and the
establishment of better data collection processes will enable reports to be submitted in a timely manner.
While we appreciate the ability to request extensions to submit reports, our goal will be to submit reports
on time without needing to obtain extension approval from ARC staff.

   B. Utilizing Grant Funds -

Recommendation #1

Establish a system to better estimate the amount of funding needed to carry out the planned activities
based on reasonable projections and factors such as available match funds.

Agree. Prior to being notified of this audit, DOS Fiscal began working with DOS ARC program staff to
strengthen our lines of communication. At a minimum, quarterly meetings will be scheduled to work on
budgets and projections, track spending rates, and review matching spending levels and opportunities.

Recommendation #2

Establish a process to routinely monitor the rate of all funds being expended during the grant period.

Agree. Quarterly meetings (at a minimum) of DOS Fiscal and DOS ARC program staff will facilitate
more routine monitoring of spending levels.

Recommendation #3

When it is anticipated that not all of the budgeted Federal funds will be used, submit a revised budget to
ARC so consideration can be given to de-obligating the funds.

Agree. Increased, scheduled communications between DOS Fiscal and DOS ARC program staff will
allow for the development and submission of timely budget revisions as necessary.

   C. Performance Measurements –

Recommendation #1

Include specific, quantified metrics with the planned objectives and activities described in the grant
application work-plan.
Agree. In prior years, the Department’s technical assistance application submitted to ARC has listed
specific objectives to be accomplished and general activities to support the completion of the objectives.
The measurement of the success of each objective would be increased if each planned activity was
supported directly by a specific measure. In the next Consolidated Technical Assistance application
work-plan, DOS will include measureable activity metrics for each activity.

Recommendation #2

Establish a means to collect the necessary data to report on the quantified metrics agreed to and
included in the plan.

Agree. Program staff will develop a more specific internal process to gather necessary data on a
quarterly basis. We have already instituted a policy that calls for regularly-scheduled quarterly meetings
between DOS Fiscal and DOS ARC staff, which will involve assessing the progress of activities moving
toward meeting NYS’s grant plans.


Thank you again for the opportunity to comment on this report.



                                                    Sincerely,




                                                    Dierdre K. Scozzafava

                                                    New York State ARC Alternate
